                                                         0
                                              Office of Inspector General
                                         Atlanta Field Office - Audit Division
                                              3003 Chamblee Tucker Rd
                                                   Atlanta, GA 30341



                                         March 24, 2004


    MEMORANDUM

    TO:           Kenneth 0. Burris, Jr.
                         1 Director, FEMA Region IV

    FROM:
                  Field Office Directo

    SUBJECT:      City of Raleigh, North Carolina
                  FEMA Disaster No. 1312-DR-NC
                  Audit Report No. DA- 19-04


    The Office of Inspector General (OIG) audited public assistance funds awarded to the
    City of Raleigh, North Carolina. The objective of the audit was to determine whether the
    City accounted for and expended FEMA funds according to federal regulations and
    FEMA guidelines.

    The City received an award of $438,283 from the North Carolina Division of Emergency
    Management, a FEMA grantee, for debris removal and emergency protective measures
    necessitated by a severe snowstorm in January 2000. The award provided 75 percent
    FEMA funding for 2 large projects, as follows:

                  Project                 Amount                  Amount
                  Number                  Awarded                 Claimed
                    333                   $ 66,041                $ 66,041
                    334                    372,242                 372,242
                    Total                 $438.283                $438.283

    The audit covered the period January 2000 to March 2003. During this period, the City
    received $328,712 of FEMA funds.
7   The OIG performed the audit under the authority of the Inspector General Act of 1978, as
    amended, and according to generally accepted government auditing standards. The audit
    included tests of the City's accounting records, a judgmental sample of expenditures, and
    other auditing procedures considered necessary under the circumstances.
C. Unrelated Proiect Charges. To be eligible for FEMA financial assistance, an item of
   work must be required as a result of the disaster (44 CFR 206.223). The City's
   claim, however, included overtime labor costs of $10,006 for employees who
   performed duties unrelated to the disaster.

    Specifically, the City's claim under debris removal Project 334 included $7,208 of
    labor costs for personnel who performed general office activities (working in stock
    room, answering phones, etc.). Similarly, under emergency services Project 333, the
    City claimed $2,798 of labor costs for several policemen that performed routine
    duties unrelated to the disaster (answering phones, mail distribution, etc.).
    Accordingly, the OIG questions these charges.

D. Unauthorized Proiect Charges. Federal regulation (OMB Circular A-87, Attachment
   A, C. 1) states that for a cost to be allowable under a federal grant program it must be
   authorized and allocable to the program. However, the City's claim under Project
   334 included $9,460 of unauthorized charges.

    Project 334 limited snow and ice removal operations to a 72-hour period beginning
    January 28,2000, and ending January 30,2000. However, the City's claim included
    charges of $7,497 for work performed on January 3 1,2000. These charges consisted
    of $3,194 for labor, $2,340 for contract work, and $1,963 for equipment usage.
    Accordingly, the OIG questions the $7,497 for work performed outside the 72-hour
    period authorized under the project.


                                  RECOMMENDATION

 The OIG recommends that the Regional Director, in coordination with the grantee,
 disallow the $54,208 of questioned costs.


          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

 The results of the audit were discussed with FEMA, grantee, and City officials on
 November 24, 2003. City officials concurred with the findings.

 Please advise the Atlanta Field Office - Audit Division by June 24, 2004, of the actions
 taken to implement the OIG recommendation. Should you have any questions
 concerning this report, please contact me or David Kimble at (770) 220-5242.
